HHS/OIG, Audit - "Review of Arkansass Reporting of Medicaid Overpayments Collected
by Contractors," (A-06-06-00023)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Arkansass Reporting of Medicaid Overpayments Collected
by Contractors," (A-06-06-00023)
September 1, 2006
Complete
Text of Report is available in PDF format (414 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Arkansas Department of Health and Human Services
(the State agency) reported overpayments collected by contractors in accordance with Federal
requirements.  The State agency did not report overpayments collected by contractors
in accordance with Federal requirements during the period October 1, 2000, through April
30, 2005.  Specifically, the State agency did not report $3,657,402 ($2,732,897 Federal
share) in overpayments and did not report $6,575,449 ($4,858,415 Federal share) in overpayments
in a timely manner.  Also, the State agency did not report the did not report Federal
share of any interest earned on funds held in the cash holding account.
We recommended that the State agency:  (1) include the $3,657,402 in unreported overpayments
on the CMS-64 and refund the $2,732,897 Federal share; (2) determine the Federal share of
any interest earned on the $10.2 million that was held, or still may be held, in the cash
holding account and refund that amount on the CMS-64; and (3) adhere to its written procedures
for clearing cash holding accounts to ensure that all future overpayments are reported in
accordance with Federal requirements.  The State agency agreed with our recommendations.